No. 20-1538
In the Supreme Court of the United States

ANGELA W. DEBOSE, PETITIONER
V.
UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES, RESPONDENT.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT
CERTIFICATE OF SERVICE

ANGELA W. DEBOSE
Petitioner Pro Se
1107 West Kirby Street
Tampa, FL 33604
(813) 230-3023
awdebose@aol.com

1
CERTIFICATE OF SERVICE
I, Angela W. DeBose, hereby certify that on June 15, 2021, copies of the attached
Rule 12.3 notice, as filed by Petitioner in the above-captioned case, were served by
first class mail, postage prepaid, to the following:

Richard C. McCrea, Jr.
Counsel of Record
Greenberg Traurig, P.A.
101 E. Kennedy Blvd, Suite 1900
Tampa, FL 33602
(813) 318-5723
mccrear@gtlaw.com

I further certify that all parties required to be served have been sery

Angela W. `DeBose

